No. ______________________

IN THE

SUPREME COURT OF THE UNITED STATES
___________________________
ANTOINE WASHINGTON,

Petitioner,

v.
UNITED STATES OF AMERICA,

Respondent.

___________________________
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
APPENDIX
MEGAN E. COLEMAN, ESQ.

Attorney for Petitioner

MARCUSBONSIB, LLC
6411 Ivy Lane, Suite 116
Greenbelt, Maryland 20770
(301) 441-3000

United States v. Campbell, 963 F.3d 309 (2020)
112 Fed. R. Evid. Serv. 1520

963 F.3d 309
United States Court of Appeals, Fourth Circuit.

UNITED STATES of
America, Plaintiff – Appellee,
v.
Alexander CAMPBELL, a/k/
a Munch, Defendant – Appellant.
United States of America,
Plaintiff – Appellee,
v.
Antonio Shropshire, a/k/a Brill, a/k/
a B, a/k/a Tony, Defendant – Appellant.
United States of America,
Plaintiff – Appellee,
v.
Glen Kyle Wells, a/k/a Lou, a/
k/a Kyle, Defendant – Appellant.
United States of America,
Plaintiff – Appellee,
v.
Antoine Washington, a/k/
a Twan, Defendant – Appellant.
No. 18-4130, No. 18-4135, No. 18-4148, No. 18-4249
|
Argued: October 31, 2019
|
Decided: June 24, 2020
Synopsis
Background: Defendants were convicted in the United States
District Court for the District of Maryland, Catherine C.
Blake, J., of participating in heroin-distribution conspiracy
and related substantive drug distribution offenses. Defendants
appealed.

Holdings: The Court of Appeals, Richardson, Circuit Judge,
held that:

expert testimony on victim's cause of death was helpful to
jury;
district court did not abuse its discretion by rejecting
defendant's proposed jury instructions to expand on but-for
causation standard;
evidence of home-invasion robbery was not other-acts
evidence;
district court did not abuse its discretion by denying
defendant's motion to sever his trial from co-defendant's; and
district court did not abuse its discretion by denying
defendant's motion for mistrial.
Affirmed.
*312 Appeals from the United States District Court
for the District of Maryland, at Baltimore. Catherine
C. Blake, District Judge. (1:16-cr-00051-CCB-2; 1:16cr-00051-CCB-3; 1:16-cr-00051-CCB-5; 1:16-cr-00051CCB-1)
Attorneys and Law Firms
ARGUED: David W. Fischer, Sr., LAW OFFICES OF
FISCHER & PUTZI, PA, Glen Burnie, Maryland; Richard
S. Stolker, UPTOWN LAW LLC, Rockville, Maryland;
Jonathan Alan Gladstone, Annapolis, Maryland; Megan
Elizabeth Coleman, MARCUSBONSIB, LLC, Greenbelt,
Maryland, for Appellants. Leo Joseph Wise, OFFICE
OF THE UNITED STATES ATTORNEY, Baltimore,
Maryland, for Appellee. ON BRIEF: Robert K. Hur, United
States Attorney, Derek E. Hines, Assistant United States
Attorney, OFFICE OF THE UNITED STATES ATTORNEY,
Baltimore, Maryland, for Appellee.
Before KEENAN, FLOYD, and RICHARDSON, Circuit
Judges.
Opinion
Affirmed by published opinion. Judge Richardson wrote the
opinion, in which Judge Keenan and Judge Floyd joined.
RICHARDSON, Circuit Judge:

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX A 1

United States v. Campbell, 963 F.3d 309 (2020)
112 Fed. R. Evid. Serv. 1520

A jury convicted Defendants Alexander Campbell, Antonio
Shropshire, Glen Kyle Wells, and Antoine Washington
of participating in a heroin-distribution conspiracy and
related substantive-drug-distribution offenses. Among the
Defendants with substantive charges, Washington was
convicted of distributing heroin that resulted in the death of
a young woman. The Defendants each argue that the district
court erred in a host of ways. But finding no error, we affirm.
I. Factual background
On December 28, 2011, a nineteen-year-old woman, J.L.,
died from a heroin overdose. Throughout the day before, J.L.
and her acquaintance, Kenneth Diggins, injected themselves
with the drug. At some point, Diggins passed out. When he
regained consciousness around 4 a.m., he noticed the color
had drained from J.L.’s face. Although Diggins called 911,
she was beyond saving.
J.L. and Diggins had bought their heroin from Antoine
Washington. This was not Washington's first time selling
heroin—nor was it his last. After J.L.’s death, Diggins
continued to buy heroin, through a friend of his, from
Washington. After a few *313 months, Diggins resumed
business directly with Washington. And just a year after J.L.’s
death, Washington marketed the quality of the heroin he was
selling by touting yet another recent overdose: “[S]omebody
OD'd yesterday, and shit was crazy. That's how good the shit
is I got. So hit me up.” J.A. 931. That same week, Diggins
himself overdosed and was hospitalized—only then did he
stop purchasing heroin from Washington.
Washington's dealings with J.L. and Diggins were only
a small part of a much larger drug business. Alongside
Alexander Campbell, Antonio Shropshire, Glen Kyle Wells,
and others, Washington sold heroin in and around Baltimore,
from at least 2010 until 2016, when law enforcement broke up
the operation. The Defendants worked together to sell heroin,
sharing phones, sources, and customers.
Maryland and federal law enforcement jointly exposed
the Defendants’ heroin ring and obtained a multi-count
federal indictment. During a three-week trial, the Defendants’
customers testified about their purchases, the government
played recorded calls arranging drug deals and discussing the
Defendants’ business, and an undercover officer described
a controlled buy. The jury also learned that the heroin
ring was aided by a now-former Baltimore City Police
Officer, Momodu Gondo. Having already pleaded guilty to
participating in the drug conspiracy, Gondo testified that he

abused his office to help his co-conspirators evade the police.
He also described a home-invasion robbery of another drug
dealer that he committed at Washington's request. Gondo
carried out this robbery alongside Wells and another former
police officer, Jemell Rayam (who also testified). They stole
money, jewelry, and heroin—most of which Wells sold—and
split the spoils with Washington.
After hearing this evidence (and much more), the jury
convicted the Defendants. The district court sentenced
Washington to 264 months’ imprisonment, Shropshire to 300
months’ imprisonment, and both Campbell and Wells to 188
months’ imprisonment.
II. Analysis
The Defendants individually raise a total of six challenges to
their convictions. We reject each and affirm.
A. Expert medical testimony
Washington argues the district court erred by admitting
expert testimony on J.L.’s cause of death over his objection.
According to Washington, Dr. Southall's statements were
inadmissible because they were testimony about an “ultimate
issue”—the cause of J.L.’s death—and were not helpful to the
jury. See Fed. R. Evid. 702, 704(a). First, Dr. Southall testified
that “[t]he cause of [J.L.’s] death was heroin intoxication.”
J.A. 1038. The prosecution then asked, “but for the heroin
J.L. took, would she have lived?” Id. (emphasis added). And
the doctor answered, “Yes.” Id. We review the district court's
decision to permit this testimony for abuse of discretion and
find none here. See United States v. Landersman, 886 F.3d
393, 411 (4th Cir. 2018).
To begin with, we note that expert testimony addressing
an ultimate issue is no longer categorically inadmissible.
Although the common law barred such testimony, “Rule
704(a) was designed specifically to abolish the ‘ultimate
issue’ rule.” United States v. Barile, 286 F.3d 749, 759 (4th
Cir. 2002). Rule 704(a) provides that otherwise admissible
opinion testimony “is not objectionable just because it
embraces an ultimate issue.” Fed. R. Evid. 704(a). But while
Rule 704(a) removes a common-law ground for excluding
testimony, it says *314 nothing about whether an expert
opinion should be admitted in the first place. See Barile, 286
F.3d at 759. For that, courts must look to Rule 702.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX A 2

United States v. Campbell, 963 F.3d 309 (2020)
112 Fed. R. Evid. Serv. 1520

To analyze Washington's objection, we start with the text of
Rule 702, which provides for the admission of expert witness
testimony if:

discern.” McIver, 470 F.3d at 562. And drawing that line
requires a case-specific inquiry of the charges, the testimony,
and the context in which it was made.

(a) the expert's scientific, technical, or other specialized
knowledge will help the trier of fact to understand the
evidence or to determine a fact in issue;

In appropriate circumstances, an expert may offer an opinion
that applies the facts to a legal standard. And applying medical
expertise to form an opinion on the cause of death is often
the type of specialized knowledge that can help a jury. See,
e.g., United States v. Chikvashvili, 859 F.3d 285, 292−94
(4th Cir. 2017) (affirming the admission of a doctor's “expert
opinion on causation” of death); United States v. Alvarado,
816 F.3d 242, 246 (4th Cir. 2016) (affirming the district court's
admission of an expert witness’ testimony that “without the
heroin, [Thomas] doesn't die”); United States v. Krieger, 628
F.3d 857, 870−71 (7th Cir. 2010) (affirming “death results”
conviction based on expert testimony identifying which drug,
out of multiple, was the but-for cause of death); see also
*315 In re Lipitor (Atorvastatin Calcium) Marketing, Sales
Practices & Products Liability Litigation (No II) MDL 2502,
892 F.3d 624, 646−47 (4th Cir. 2018) (discussing the frequent
need for expert testimony to establish that a drug was
the cause of death). Indeed, medical testimony about drug
toxicity in the body and a cause of death as determined during
an autopsy are generally well beyond the jury's common
knowledge.

(b) the testimony is based on sufficient facts or data;
(c) the testimony is the product of reliable principles and
methods; and
(d) the expert has reliably applied the principles and
methods to the facts of the case.
Referring to subsection (a), our Court has explained that
whether testimony “assist[s] the trier of fact” is the
“touchstone” of Rule 702. Friendship Heights Associates
v. Vlastimil Koubek, A.I.A., 785 F.2d 1154, 1159 (4th Cir.
1986) (internal quotations and citation omitted). And if not
helpful to the jury's understanding, an expert's opinion is
inadmissible. Kopf v. Skyrm, 993 F.2d 374, 377–78 (4th Cir.
1993). Washington focuses his argument on this helpfulness
requirement of Rule 702.1
1

We note that, even if an expert witness's opinion is
admissible under Rule 702, Rule 403 permits the district
court to exclude relevant opinion testimony “if its
probative value is substantially outweighed by a danger
of ... unfair prejudice.” While Washington suggested to
the district court that the doctor's testimony was “highly
prejudicial,” he neither explained to the district court
why it was “unfairly” so nor why any “unfair prejudice
substantially outweigh[ed]” the testimony's probative
value. See United States v. Siegel, 536 F.3d 306, 319 (4th
Cir. 2008). In any event, Washington does not rely on
Rule 403 on appeal.

Washington argues that, because Dr. Southall testified about
the “but-for cause” of death using the same but-for language
as the jury instructions, Dr. Southall's opinion was an
unhelpful legal conclusion. And we have recognized that
“[e]xpert testimony that merely states a legal conclusion is
less likely to assist the jury in its determination.” Barile,
286 F.3d at 760; see also United States v. McIver, 470
F.3d 550, 562 (4th Cir. 2006) (noting that opinion testimony
that states a legal standard or draws a legal conclusion is
“generally inadmissible”). But this guidance on whether a
legal conclusion is “likely to assist” is necessarily general:
“The line between a permissible opinion on an ultimate issue
and an impermissible legal conclusion is not always easy to

As a result, Washington argues that Dr. Southall's testimony
was impermissible because she embraced the legal term of
art “but-for.” Indeed, difficult questions often emerge when
the expert's opinion relies on terms with “separate, distinct
and specialized meaning in the law different from that present
in the vernacular.” Barile, 286 F.3d at 760 (cleaned up);
see also United States v. Offill, 666 F.3d 168, 175 (4th
Cir. 2011) (recognizing that expert testimony giving a legal
conclusion was properly admitted given the technical legal
issues involved with federal securities laws).
But we need not address those questions here because,
contrary to Washington's assertion, Dr. Southall's opinion
that heroin caused J.L.’s death employed commonly used
vernacular. See J.A. 1038 (testifying that “[t]he cause of death
was heroin intoxication” and answering “Yes” in response
to counsel's question “[B]ut for the heroin J.L took, would
she have lived?”). As the Supreme Court has explained, the
“but-for requirement is part of the common understanding of
cause.” Burrage v. United States, 571 U.S. 204, 211, 134 S.Ct.
881, 187 L.Ed.2d 715 (2014). That phrase, like “results from,”
is a common way to express “that one event is the outcome
or consequence of another.” Id. at 212, 134 S.Ct. 881. To

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX A 3

United States v. Campbell, 963 F.3d 309 (2020)
112 Fed. R. Evid. Serv. 1520

illustrate the point, the Supreme Court turned to America's
pastime: If a team wins 1-0 after a batter hits a home run,
then “every person competent in the English language and
familiar with the American pastime would agree that the
victory resulted from the home run. ... [I]t is natural to say that
one event is the outcome or consequence of another when the
former would not have occurred but for the latter.” Id. at 211–
12, 134 S.Ct. 881.
The commonly understood meaning of “but for” and “results
from” do not diverge from their legal meaning. So we have
no trouble finding that the jury would understand those terms
and that the expert could apply the facts to that understanding.
The district judge thus acted well within its discretion in
permitting the doctor to testify that “[t]he cause of death was
heroin intoxication” and that “but for the heroin J.L took [she
would] have lived.” J.A. 1038.
B. Jury instructions
Washington also challenges the jury instructions that
described the government's burden of proof for the offense
of distributing heroin resulting in death. As with the district
court's evidentiary rulings, we review the district court's
decision to reject a proposed jury instruction for abuse of
discretion. United States v. Sonmez, 777 F.3d 684, 688 (4th
Cir. 2015). In this circumstance, we will find an abuse of
discretion only if the proffered instruction was:
(1) A correct statement of the law;
(2) Not substantially covered by the instructions given by
the district court; and
(3) Involved some point so important that the failure to give
the instruction seriously impaired the defendant's defense.
United States v. Hager, 721 F.3d 167, 184 (4th Cir. 2013). And
even if these factors are satisfied, we will not find reversible
error unless the defendant can show that the entire record
shows prejudice. Id.
*316 Washington requested three special jury instructions to
expand on the but-for causation standard: (1) that if there were
“multiple sufficient causes independently, but concurrently,
that could have” caused the death, then the jury must be
convinced that “but for heroin” J.L. would not have died; (2)
that it was the government's burden to show that there were
no “other concurring sufficient causes” beyond the heroin;
and (3) that the government must prove the heroin was not
“merely a contributing or a significant” factor in J.L.’s death.

J.A. 1505. The district court already included instructions
that the government had to prove that “but for the use of the
drugs” J.L. would not have died and that “in the absence of
the heroin” she would not have died. J.A. 1549–50.
Washington claims his proposed instructions are required
by the Supreme Court's decision in Burrage. Not so.
Though Burrage held that but-for causation was generally
required to prove that death resulted, the Supreme Court
acknowledged that but-for causation might not be required
in the special circumstance where evidence establishes that
multiple sufficient causes independently, but concurrently,
caused death. 571 U.S. at 214, 134 S.Ct. 881. To illustrate, the
Court described a victim who was simultaneously stabbed and
shot by different assailants. Id. at 215, 134 S.Ct. 881. In that
situation, the conduct of neither the stabber nor the shooter
was the but-for cause of the victim's death. Id. Even so, the
stabber would generally be liable for homicide. Id. Although
the Supreme Court determined that this special circumstance
did not apply in Burrage's case, it made clear that the special
circumstance would permit a jury to find causation when
two sufficient causes independently and concurrently caused
death. Id. at 214−15, 134 S.Ct. 881.
Washington's first two proposed instructions seek to turn
this special rule on its head. For example, his second
proposed instruction suggests that, where two sufficient
causes independently and concurrently cause death, a jury
could not find causation is established: “It is the government's
burden to prove beyond a reasonable doubt that there were
not other concurring sufficient causes.” J.A. 1505. But this
misreads Burrage. The special rule identified by Burrage
would only lessen the government's burden, permitting a
finding of causation absent but-for cause where multiple,
independent causes concurrently cause death. See Burrage,
571 U.S. at 218–19, 134 S.Ct. 881. Yet the government here
did not seek such an instruction nor did the jury instructions
give the government the benefit of this special rule. Compare
id. at 211, 134 S.Ct. 881 (explaining that but-for causation is
established “if the predicate act combines with other factors
to produce the result, so long as the other factors alone would
not have done so—if, so to speak, it was the straw that broke
the camel's back”), with J.A. 1550 (“The Government is not
required to prove that the drugs distributed by the defendant
to J.L. did not combine with other factors to produce death
so long as the other factors alone would not have done so.”)
(emphasis added).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX A 4

United States v. Campbell, 963 F.3d 309 (2020)
112 Fed. R. Evid. Serv. 1520

The district court's instructions made clear that the
government had to prove that “but for the use of the drugs
that the defendant distributed, J.L. would not have died.” J.A.
1550. To the extent that Washington sought to reiterate that the
heroin must be the but-for cause in his somewhat confusing
proposed instructions, the district court's instructions more
than adequately addressed that central idea. See United States
v. Savage, 885 F.3d 212, 223 (4th Cir. 2018) (finding no
abuse of discretion where the instructions given “substantially
covered [the defendant's] requested *317 instruction”). So
we find the district court acted within its discretion in rejecting
Washington's proposed instructions.
C. The home-invasion robbery
We turn next to Wells's claim that the district court should
have excluded evidence of a home-invasion robbery. We also
review that ruling for an abuse of discretion. United States v.
Basham, 561 F.3d 302, 325−26 (4th Cir. 2009).2
2

While Washington also raises this claim on appeal, it
does not appear that he objected before the district
court. We need not separately address plain error review
for Washington on this claim because we find that the
evidence was properly admitted.

Wells argues that evidence of the home-invasion robbery
was impermissible propensity evidence. We disagree. Federal
Rule of Evidence 404(b) bars the admission of “[e]vidence of
a crime, wrong, or other act” to “prove a person's character
in order to show that on a particular occasion the person
acted in accordance with the character.” Fed. R. Evid. 404(b)
(1); see also United States v. Lespier, 725 F.3d 437, 448
(4th Cir. 2013). Rule 404(b) is limited to evidence of other
crimes or wrongs—not evidence of the charged offenses.
United States v. Cooper, 482 F.3d 658, 663 (4th Cir. 2007)
(“Rule 404(b) only applies, however, to evidence relating
to acts extrinsic to the conduct being prosecuted.”). As a
result, acts committed in furtherance of a charged conspiracy
are not “other acts” evidence governed by Rule 404(b). See
United States v. Palacios, 677 F.3d 234, 244–45 (4th Cir.
2012) (holding that a robbery and firing of a gun were “acts
committed in furtherance of the conspiracy” and not “prior
bad acts” governed by Rule 404(b)); see also United States
v. Lipford, 203 F.3d 259, 269 (4th Cir. 2000) (holding that
evidence of a shooting was relevant to the charged drug
conspiracy and not limited by Rule 404(b)).
The robbery here was committed in furtherance of the charged
conspiracy, so evidence of that robbery was not limited by

Rule 404(b). At Washington's instigation, Wells joined with
Officers Gondo and Rayam to rob a known drug dealer, Aaron
Anderson, who had sold Washington heroin since 2010. Wells
and Rayam went into Anderson's apartment while Gondo
served as a look-out. Wells and Rayam left with around 800
grams of heroin, money, jewelry, and a firearm. Wells then
sold much of the stolen heroin. And Gondo, Rayam, and Wells
all split the money and gave Washington his cut.
In response, Wells contends that the home invasion was an
entirely separate conspiracy. He characterizes the robbery as
a “freelance” operation whose target objective was to steal
cash, not drugs. Appellants’ Br. 67. But the robbery of a drug
dealer by members of an active drug conspiracy—who then
sell the stolen heroin and split the proceeds—is evidence of
the charged drug conspiracy. Cf. United States v. Kennedy,
32 F.3d 876, 884 (4th Cir. 1994) (holding that a multiple
conspiracy instruction is not required unless the evidence
shows that the defendants were involved only in “separate
conspiracies unrelated to the overall conspiracy charged in
the indictment”) (internal quotations and citation omitted).
And this 2015 robbery occurred during the charged drug
conspiracy. See Cooper, 482 F.3d at 663 (citing Kennedy, 32
F.3d at 885).
Because evidence of the robbery was evidence of the drug
conspiracy, it does not fall within the scope of Rule 404(b).
And so the evidence of the home-invasion robbery was
properly admitted by the district court.3
3

We note that the briefing in the district court on this
issue was filed under seal. We cannot divine precisely
why this material was sealed, or even if the district court
granted the motion to seal this material. Given the heavy
burden to seal criminal filings, see Doe v. Public Citizen,
749 F.3d 246, 265–69 (4th Cir. 2014), we direct the
unredacted briefing and Volume V of the Joint Appendix
be unsealed thirty days after this opinion is issued. If
a valid justification remains for sealing—perhaps for
J.A. 1808–09—we invite the parties to file a motion
addressing the issue within the thirty-day period.

*318 D. Joinder and severance
Another Defendant, Shropshire, challenges the district court's
denial of his motion to sever his trial from Washington's.
Shropshire contends that, since Washington was the only
Defendant charged with distribution of heroin resulting in
death, Shropshire should have been tried separately because

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX A 5

United States v. Campbell, 963 F.3d 309 (2020)
112 Fed. R. Evid. Serv. 1520

evidence about J.L.’s death infected the jury's determination
of his guilt.
Whether defendants are properly joined under Rule 8 of the
Federal Rules of Criminal Procedure is a legal question we
review de novo. United States v. Mackins, 315 F.3d 399,
412 (4th Cir. 2003). If defendants are improperly joined,
severance is “mandatory and not a matter of discretion within
the trial court.” United States v. Santoni, 585 F.2d 667,
673 (4th Cir. 1978). But if joinder is proper under Rule 8,
we review a district court's discretionary severance decision
under Rule 14 for abuse of discretion. United States v.
Montgomery, 262 F.3d 233, 244 (4th Cir. 2001).
Under Rule 8(b), defendants may be joined when they “are
alleged to have participated in the same act or transaction, or
in the same series of acts or transactions.” This requirement
is satisfied here. These Defendants were all charged with
participating in a drug conspiracy and with substantive counts
arising from that same conspiracy. As alleged co-conspirators,
Washington and Shropshire were properly indicted together,
even though they were charged with separate substantive drug
offenses. See Santoni, 585 F.2d at 673−74; see also Fed. R.
Crim. P. 8(b) (“[D]efendants may be charged in one or more
counts together or separately”; they “need not be charged in
each count.”) (emphasis added).
Even so, Rule 14(a) gives district courts the discretion to sever
properly joined defendants where actual prejudice would
result from a joint trial. See Fed. R. Crim. P. 14(a). But
generally “we adhere to the rule that defendants charged
with participation in the same conspiracy are to be tried
jointly.” United States v. Akinkoye, 185 F.3d 192, 197 (4th
Cir. 1999). And the mere fact that evidence against one
or more co-conspirator is stronger or more inflammatory
than the evidence against others does not necessarily require
severance. See United States v. Hall, 93 F.3d 126, 131−32 (4th
Cir. 1996) (rejecting defendant's argument that severance was
required where a co-defendant co-conspirator was charged
with murder because it may have inflamed the passions of the
jury), abrogated on other grounds by Richardson v. United
States, 526 U.S. 813, 119 S.Ct. 1707, 143 L.Ed.2d 985 (1999).
Indeed, a conspirator is liable for all acts and all declarations
in furtherance of the conspiracy. See, e.g., United States v.
U.S. Gypsum Co., 333 U.S. 364, 393, 68 S.Ct. 525, 92 L.Ed.
746 (1948). Rather, severance under Rule 14(a) is limited
to those “rare” cases in which “there is a serious risk” that
joinder would compromise a specific trial right or “prevent
the jury from making a reliable judgment about guilt or

innocence.” United States v. Blair, 661 F.3d 755, 768 (4th
Cir. 2011) (internal quotations and citation omitted). And the
defendant bears the “burden of *319 demonstrating a strong
showing of prejudice.” United States v. Goldman, 750 F.2d
1221, 1225 (4th Cir. 1984).
Shropshire claims that the emotionally charged nature of
Washington's heroin distribution that led to J.L.’s death
rendered the jury unable to compartmentalize that offense
and Shropshire's own drug charges. The evidence showed
that Shopshire and Washington conspired with others to
distribute heroin from 2010 through 2017. And the indictment
charged that one overt act of the conspiracy was Washington's
heroin distribution in December 2011 that caused J.L.’s death.
Along with conspiracy, the indictment charged Washington
individually with the substantive offense of distributing
heroin resulting in death.4
4

While the government might have charged Washington's
co-Defendants with conspiracy to distribute heroin
resulting in death, the government only charged
Washington with the substantive offense, which imposes
a longer statutory minimum period of imprisonment “if
death or serious bodily injury results.” 21 U.S.C. § 841(b)
(1)(C).

We find the district court acted well within its discretion
in denying the motion for a severance. The district court
found that much of the evidence would be admissible in
separate trials, “greatly diminish[ing]” any prejudice. J.A.
102 (citing United States v. Cole, 857 F.2d 971, 974 (4th Cir.
1988)). Additional mitigating factors were readily apparent
from the record: the evidence at trial surrounding J.L.’s
death only mentioned Washington, and each Defendant
engaged in the same general conduct—distributing heroin—
though Washington's distribution to J.L. led to more severe
consequences. And any concerns of prejudicial spillover
were also mitigated by the district court's explicit instruction
that the jury must consider each Defendant and each count
separately, while also emphasizing that it would be improper
to permit the jury's feelings about the nature of the crimes
to interfere with the decision-making process. See Zafiro v.
United States, 506 U.S. 534, 539, 113 S.Ct. 933, 122 L.Ed.2d
317 (1993) (“[L]ess drastic measures [than severance], such
as limiting instructions, often will suffice to cure any risk of
prejudice.”); see also Blair, 661 F.3d at 769−70 (noting that
cautionary language “substantially mitigated ... any possible
spillover of prejudicial evidence”) (internal quotations and
citation omitted).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX A 6

United States v. Campbell, 963 F.3d 309 (2020)
112 Fed. R. Evid. Serv. 1520

Rule 14 leaves the risk-of-prejudice determination to the
sound discretion of the district court. Because Shropshire fails
to show that clear prejudice resulted from the joint trial, we
conclude that the district court did not abuse its discretion.
E. Ineffective assistance of counsel
Shropshire also seeks to raise an ineffective-assistanceof-counsel claim. He contends that his counsel failed
to protect his Sixth Amendment rights after documents
were allegedly taken during a search of his jail cell. As
Shropshire concedes in his brief, however, “[t]he matter of
the removed documents remained unresolved and was never
again discussed, evaluated[,] or questioned during the trial. ...
[T]he issue never was considered, much less resolved, by the
trial court.” Appellants’ Br. 79−80. Since this record fails
to “conclusively” show ineffective assistance, we decline to
address it. United States v. Faulls, 821 F.3d 502, 507 (4th Cir.
2016); see also United States v. King, 119 F.3d 290, 295 (4th
Cir. 1997).
F. Mug shots
Lastly, another Defendant, Campbell, contends that the
district court abused its discretion in denying his motion
for a mistrial after mug shots were displayed *320 to the
jury. A “denial of a defendant's motion for a mistrial is
within the sound discretion of the district court.” United
States v. Dorlouis, 107 F.3d 248, 257 (4th Cir. 1997). As a
reviewing court, we disrupt this discretion “only under the
most extraordinary of circumstances.” Id. “[I]f the jury could
make [the] guilt determination[ ] by following the court's
cautionary instructions” as to the potentially prejudicial
material, then “no prejudice exists.” United States v. Wallace,
515 F.3d 327, 330 (4th Cir. 2008) (cleaned up).

End of Document

During trial, Campbell's counsel suggested through
questioning that a witness misidentified Campbell “as a
black male with short dreads.” J.A. 485. Campbell's counsel
then pressed the witness to confirm that the witness had
not encountered Campbell with short dreads. On redirect,
the government tried to show arrest photos from during
the conspiracy that showed Campbell with dreadlocks. See
United States v. Johnson, 495 F.2d 378, 384 (4th Cir. 1974).
After the page was displayed for no more than three or four
seconds, Campbell's counsel objected, and the exhibit was
taken down. At sidebar, the district court agreed to exclude
the photographs but refused to grant a mistrial because the
images were not displayed long enough for anyone to draw
any prejudicial inference about Campbell. The district court
then instructed the jury to “completely disregard” the images.
J.A. 547.
Given the limited time the photographs were displayed and
the steps taken by the district court, we find that the court
acted within its discretion in denying the motion for a mistrial
after mitigating any risk of prejudice with a cautionary
instruction.
***
Despite the many claims of error, we find that the district court
admirably handled this case. For the reasons given above, the
judgment of the district court is
AFFIRMED.
All Citations
963 F.3d 309, 112 Fed. R. Evid. Serv. 1520

© 2020 Thomson Reuters. No claim to original U.S.
Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX A 7

USCA4 Appeal: 18-4249

Doc: 102

Filed: 07/22/2020

Pg: 1 of 1

FILED: July 22, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
___________________
No. 18-4249
(1:16-cr-00051-CCB-1)
___________________
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
ANTOINE WASHINGTON, a/k/a Twan
Defendant - Appellant
___________________
ORDER
___________________
The petition for rehearing en banc was circulated to the full court. No judge
requested a poll under Fed. R. App. P. 35. The court denies the petition for
rehearing en banc.
For the Court
/s/ Patricia S. Connor, Clerk

APPENDIX B

199
SOUTHALL, M.D.

- DIRECT

1

going to ask you to do the same thing.

But what did you rely

2

on in this report to conclude that heroin intoxication was the

3

cause of J.L. 's death?

4

A.

5

6-Monoacetylmorphine.

6

Q.

And what does the -- what does that combination tell you?

7

A.

That combination tells me that it's heroin in her body.

8

Q.

And how does the results from your autopsy and this

9

toxicology report lead you to conclude or how did it lead you

The morphine in combination with metabolite in the urine,

10

to conclude that the cause of death for J.L. was

11

heroin intoxication?

12

A.

13

the absence of any other finding, any other cause of death.

14

Q.

15

absence of trauma or natural diseases, the -- what you said you

16

didn't find in the autopsy?

17

A.

Correct.

18

Q.

So is it your opinion, Dr. Southall, that the

19

but-for cause of J.L.'s death was heroin?

The presence of heroin in her body, in her bloodstream in

And what would -- would the other finding have been in the

20

MR. BONSIB:

21

THE COURT:

22
23

Objection.

May we approach?

Do you want to come up?

All right.

(Bench conference on the record:
MR. BONSIB:

Your Honor, Mr. Wise is using the

24

specific term that is found in the jury instructions and in the

25

case law that has legal-conclusion significance.
Douglas J. Zweizig, RDR, CRR - Federal Official Court Reporter

1035

APPENDIX C

200

1
2

The test -- the instructions will say in some measure
that the jury has got to find a but-for.

3

This witness can testify as to the cause of death in

4

her opinion; but to put the language of the jury instructions

5

and the legal conclusion in that question I believe is highly

6

prejudicial, not necessary, and seeks to have this witness

7

opine as to the ultimate issue as to whether or not the heroin

8

in this case is, as the instruction -- proposed instructions,

9

anyhow, says was the but-for cause of death.

I don't know what

10

"but-for" means in terms of a Medical Examiner.

I know what it

11

means in terms of what the Government's going to try to say a

12

proper jury instruction is.

13

MR. WISE:

Your Honor, the Supreme Court in Burrage

14

specifically said that a Medical Examiner has to testify that

15

the cause of death was

16

but-for cause of death.

17

that the substance charged was the

The ultimate issue is whether the defendant

18

distributed the heroin, but, I mean, the Supreme Court's

19

opinion requires that.

20

MR. BONSIB:

I think it requires proof of that.

It

21

doesn't permit the Medical Examiner to use that language, I

22

don't think.

23

24
25

THE COURT:

Well, what's your authority for not

permitting the Medical Examiner to use that phrase?
MR. BONSIB:

Because it's basically asking her to

Douglas J. Zweizig, RDR, CRR - Federal Official Court Reporter

1036

APPENDIX C

201

1

opine on a legal conclusion.

2

death is and there's other ways of getting her to opine without

3

using that language.
MR. WISE•

4

She can say what the cause of

She testified she's a forensic pathologist,

5

which where they specifically come into court and they testify

6

that things are homicides; they're suicides.

7

legal implications.

8
9

Those all have

That's what the field of forensic -- that may not be
the precise section that I highlighted, Your Honor, but this is

10

the -- the issue that was before the Supreme Court in Burrage

11

is whether Medical Examiners had to testify that the charged

12

substance was the but-for cause or proximate cause or whether

13

they could testify it was a contributing factor alone in

14

combination with other substances or alcohol.

15
16

And the Supreme Court said they specifically had to
find that it was the but-for cause or the proximate cause.
Apparently they were looking for an expert

THE COURT•

17

18

who was prepared to say that the person would have died from

19

the heroin use alone.

20

MR. WISE•

And the other way-- the other way that I'm

21

going to ask this is:

22

heroin?

Would J.L. have lived if not for the

23

And that's the other way the Supreme Court talks about

24

the legal standard that we have to meet and what the expert has

25

to testify to.
Douglas J. zweizig, RDR, CRR - Federal Official Court Reporter

1037

APPENDIX C

202
SOUTHALL, M.D.

1
2

THE COURT:

objection.

4

I'm going to overrule the

You may ask the question.

MR. WISE:

3

Okay.

- CROSS

Thank you, Your Honor.)

(Bench conference concluded.)

5

BY MR. WISE:

6

Q.

7

probably don't remember it at this point.

8

Dr. Southall, I'll ask my question again because you

What was the but-for cause of J.L. •s death?

9

A.

The cause of death was heroin intoxication.

10

Q.

And put another way, but for the heroin J.L. took, would

11

she have lived?

12

A.

Yes.

13

Q.

And, Dr. Southall, what is heroin intoxication?

14

A.

Heroin intoxication is basically narcotic intoxication.

15

It -- heroin in particular, any narcotic will cause an extreme

16

respiratory depression where a person will slow down, become

17

lethargic, become sleepy.

18

snoring to the point where everything slows down.

19

rate and the breathing slow down to the point where they don't

20

get enough oxygen, pass out, and subsequently die.

My opinion is yes.

21

MR. WISE:

22

THE COURT:

23

Sometimes they're described as
The heart

Nothing further, Your Honor.
Okay.

All right, Mr. Bonsib.

CROSS-EXAMINATION

24

BY MR. BONSIB:

25

Q.

Good afternoon, Doctor.

How are you?

Douglas J. Zweizig, RDR, CRR - Federal Official Court Reporter

1038

APPENDIX C

55

1

instruction does not do that.

2

So for -- so in summary, we reject -- we object to the

3

inclusion of the portion in the instructions that we noted and

4

are asking the Court to include the additional three

5

instructions that we have requested for the reasons stated.

6

We also, specifically with respect to Number 3 in our

7

requested instructions, believe it is important that the jury

8

be told that the -- they be told that the heroin, if they find

9

the heroin was simply a contributing or significant factor in

10

producing the death of J.L., that that is not sufficient and

11

the Government must prove beyond a reasonable doubt that it was

12

something more than merely a contributing or significant

13

factor.

14

Thank you, Your Honor.

15

THE COURT:

16
17

Okay.

Does the Government -- do you have

anything you want to put on the record regarding that?
MR. WISE:

We filed our motion on this instruction.

18

We believe the instruction the Court is giving is an accurate

19

state of the law.

20

submitted does not accurately reflect the law, and so we are on

21

totally separate pages.

22

THE COURT:

We believe the instruction the defense has

All right.

And I'm going to deny the

23

request to give the additional three instructions proposed by

24

Mr. Bonsib.

25

inaccurate, confusing, or adequately covered by the instruction

I believe that in total, they are either

Douglas J. Zweizig, RDR, CRR - Federal Official Court Reporter

1561

APPENDIX D

56

1

that I am giving.

2

Burrage, B-U-R-R-A-G-E, and also on the Fourth Circuit's

3

opinion in Alvarado, A-L-V-A-R-A-D-0, which, indeed,

4

specifically uses the "straw that broke the camel's back"

5

language.

6

The instruction I am giving is based on

In any event, I think that the instruction I've given

7

is appropriate, particularly in light of statements and

8

evidence relating to other possible contributing causes of

9

J.L. 's death.

I think this makes clear to the jury what the

10

Government's burden is, which is to prove that the heroin was

11

the but-for cause.

12

Okay.

Anything else?

13

MR. HENSLEE:

Your Honor, just for the record, I

14

wanted to state that I did want to join in Mr. Bonsib's first

15

motion that he made.
I joined you all in the first one.

16

THE COURT:

17

MR. HENSLEE:

18

THE COURT:

Okay.

I understood that to be the case from the

19

conference in chambers.

20

Okay.

21

MR. WISE:

22

Thank you.

Anything else?
Can we have a couple minutes before, just

to make sure the technology is working?

23

THE COURT:

24

MR. WISE:

25

THE COURT:

I'll take a break.
Thank you, Your Honor.
Thanks.)

Douglas J. Zweizig, RDR, CRR - Federal Official Court Reporter

1562

APPENDIX D

§ 841. Prohibited acts A, 21 USCA § 841

KeyCite Yellow Flag - Negative Treatment
Unconstitutional or PreemptedPrior Version Held Unconstitutional by U.S. v. Grant, C.D.Cal., Nov. 30, 2007
KeyCite Yellow Flag - Negative TreatmentProposed Legislation

United States Code Annotated
Title 21. Food and Drugs (Refs & Annos)
Chapter 13. Drug Abuse Prevention and Control (Refs & Annos)
Subchapter I. Control and Enforcement
Part D. Offenses and Penalties
21 U.S.C.A. § 841

§ 841. Prohibited acts A
Effective: December 21, 2018
Currentness
(a) Unlawful acts
Except as authorized by this subchapter, it shall be unlawful for any person knowingly or intentionally-(1) to manufacture, distribute, or dispense, or possess with intent to manufacture, distribute, or dispense, a controlled
substance; or
(2) to create, distribute, or dispense, or possess with intent to distribute or dispense, a counterfeit substance.
(b) Penalties
Except as otherwise provided in section 849, 859, 860, or 861 of this title, any person who violates subsection (a) of this section
shall be sentenced as follows:
(1)(A) In the case of a violation of subsection (a) of this section involving-(i) 1 kilogram or more of a mixture or substance containing a detectable amount of heroin;
(ii) 5 kilograms or more of a mixture or substance containing a detectable amount of-(I) coca leaves, except coca leaves and extracts of coca leaves from which cocaine, ecgonine, and derivatives of ecgonine
or their salts have been removed;
(II) cocaine, its salts, optical and geometric isomers, and salts of isomers;

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX E 1

§ 841. Prohibited acts A, 21 USCA § 841

(III) ecgonine, its derivatives, their salts, isomers, and salts of isomers; or
(IV) any compound, mixture, or preparation which contains any quantity of any of the substances referred to in
subclauses (I) through (III);
(iii) 280 grams or more of a mixture or substance described in clause (ii) which contains cocaine base;
(iv) 100 grams or more of phencyclidine (PCP) or 1 kilogram or more of a mixture or substance containing a detectable
amount of phencyclidine (PCP);
(v) 10 grams or more of a mixture or substance containing a detectable amount of lysergic acid diethylamide (LSD);
(vi) 400 grams or more of a mixture or substance containing a detectable amount of N-phenyl-N-[1-(2-phenylethyl)-4piperidinyl] propanamide or 100 grams or more of a mixture or substance containing a detectable amount of any analogue
of N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl] propanamide;
(vii) 1000 kilograms or more of a mixture or substance containing a detectable amount of marihuana, or 1,000 or more
marihuana plants regardless of weight; or
(viii) 50 grams or more of methamphetamine, its salts, isomers, and salts of its isomers or 500 grams or more of a mixture
or substance containing a detectable amount of methamphetamine, its salts, isomers, or salts of its isomers;
such person shall be sentenced to a term of imprisonment which may not be less than 10 years or more than life and if death
or serious bodily injury results from the use of such substance shall be not less than 20 years or more than life, a fine not
to exceed the greater of that authorized in accordance with the provisions of Title 18 or $10,000,000 if the defendant is an
individual or $50,000,000 if the defendant is other than an individual, or both. If any person commits such a violation after
a prior conviction for a serious drug felony or serious violent felony has become final, such person shall be sentenced to a
term of imprisonment of not less than 15 years and not more than life imprisonment and if death or serious bodily injury
results from the use of such substance shall be sentenced to life imprisonment, a fine not to exceed the greater of twice that
authorized in accordance with the provisions of Title 18 or $20,000,000 if the defendant is an individual or $75,000,000
if the defendant is other than an individual, or both. If any person commits a violation of this subparagraph or of section
849, 859, 860, or 861 of this title after 2 or more prior convictions for a serious drug felony or serious violent felony have
become final, such person shall be sentenced to a term of imprisonment of not less than 25 years and fined in accordance
with the preceding sentence. Notwithstanding section 3583 of Title 18, any sentence under this subparagraph shall, in the
absence of such a prior conviction, impose a term of supervised release of at least 5 years in addition to such term of
imprisonment and shall, if there was such a prior conviction, impose a term of supervised release of at least 10 years in
addition to such term of imprisonment. Notwithstanding any other provision of law, the court shall not place on probation
or suspend the sentence of any person sentenced under this subparagraph. No person sentenced under this subparagraph
shall be eligible for parole during the term of imprisonment imposed therein.
(B) In the case of a violation of subsection (a) of this section involving--

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX E 2

§ 841. Prohibited acts A, 21 USCA § 841

(i) 100 grams or more of a mixture or substance containing a detectable amount of heroin;
(ii) 500 grams or more of a mixture or substance containing a detectable amount of-(I) coca leaves, except coca leaves and extracts of coca leaves from which cocaine, ecgonine, and derivatives of ecgonine
or their salts have been removed;
(II) cocaine, its salts, optical and geometric isomers, and salts of isomers;
(III) ecgonine, its derivatives, their salts, isomers, and salts of isomers; or
(IV) any compound, mixture, or preparation which contains any quantity of any of the substances referred to in
subclauses (I) through (III);
(iii) 28 grams or more of a mixture or substance described in clause (ii) which contains cocaine base;
(iv) 10 grams or more of phencyclidine (PCP) or 100 grams or more of a mixture or substance containing a detectable
amount of phencyclidine (PCP);
(v) 1 gram or more of a mixture or substance containing a detectable amount of lysergic acid diethylamide (LSD);
(vi) 40 grams or more of a mixture or substance containing a detectable amount of N-phenyl-N-[1-(2-phenylethyl)-4piperidinyl] propanamide or 10 grams or more of a mixture or substance containing a detectable amount of any analogue
of N-phenyl-N-[1-(2-phenylethyl)-4-piperidinyl] propanamide;
(vii) 100 kilograms or more of a mixture or substance containing a detectable amount of marihuana, or 100 or more
marihuana plants regardless of weight; or
(viii) 5 grams or more of methamphetamine, its salts, isomers, and salts of its isomers or 50 grams or more of a mixture or
substance containing a detectable amount of methamphetamine, its salts, isomers, or salts of its isomers;
such person shall be sentenced to a term of imprisonment which may not be less than 5 years and not more than 40 years
and if death or serious bodily injury results from the use of such substance shall be not less than 20 years or more than life, a
fine not to exceed the greater of that authorized in accordance with the provisions of Title 18 or $5,000,000 if the defendant
is an individual or $25,000,000 if the defendant is other than an individual, or both. If any person commits such a violation
after a prior conviction for a serious drug felony or serious violent felony has become final, such person shall be sentenced
to a term of imprisonment which may not be less than 10 years and not more than life imprisonment and if death or serious
bodily injury results from the use of such substance shall be sentenced to life imprisonment, a fine not to exceed the greater
of twice that authorized in accordance with the provisions of Title 18 or $8,000,000 if the defendant is an individual or
$50,000,000 if the defendant is other than an individual, or both. Notwithstanding section 3583 of Title 18, any sentence
imposed under this subparagraph shall, in the absence of such a prior conviction, include a term of supervised release of
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX E 3

§ 841. Prohibited acts A, 21 USCA § 841

at least 4 years in addition to such term of imprisonment and shall, if there was such a prior conviction, include a term of
supervised release of at least 8 years in addition to such term of imprisonment. Notwithstanding any other provision of
law, the court shall not place on probation or suspend the sentence of any person sentenced under this subparagraph. No
person sentenced under this subparagraph shall be eligible for parole during the term of imprisonment imposed therein.
(C) In the case of a controlled substance in schedule I or II, gamma hydroxybutyric acid (including when scheduled as
an approved drug product for purposes of section 3(a)(1)(B) of the Hillory J. Farias and Samantha Reid Date-Rape Drug
Prohibition Act of 2000), or 1 gram of flunitrazepam, except as provided in subparagraphs (A), (B), and (D), such person shall
be sentenced to a term of imprisonment of not more than 20 years and if death or serious bodily injury results from the use of
such substance shall be sentenced to a term of imprisonment of not less than twenty years or more than life, a fine not to exceed
the greater of that authorized in accordance with the provisions of Title 18 or $1,000,000 if the defendant is an individual or
$5,000,000 if the defendant is other than an individual, or both. If any person commits such a violation after a prior conviction
for a felony drug offense has become final, such person shall be sentenced to a term of imprisonment of not more than 30
years and if death or serious bodily injury results from the use of such substance shall be sentenced to life imprisonment, a fine
not to exceed the greater of twice that authorized in accordance with the provisions of Title 18 or $2,000,000 if the defendant
is an individual or $10,000,000 if the defendant is other than an individual, or both. Notwithstanding section 3583 of Title 18,
any sentence imposing a term of imprisonment under this paragraph shall, in the absence of such a prior conviction, impose
a term of supervised release of at least 3 years in addition to such term of imprisonment and shall, if there was such a prior
conviction, impose a term of supervised release of at least 6 years in addition to such term of imprisonment. Notwithstanding
any other provision of law, the court shall not place on probation or suspend the sentence of any person sentenced under the
provisions of this subparagraph which provide for a mandatory term of imprisonment if death or serious bodily injury results,
nor shall a person so sentenced be eligible for parole during the term of such a sentence.
(D) In the case of less than 50 kilograms of marihuana, except in the case of 50 or more marihuana plants regardless of
weight, 10 kilograms of hashish, or one kilogram of hashish oil, such person shall, except as provided in paragraphs (4) and
(5) of this subsection, be sentenced to a term of imprisonment of not more than 5 years, a fine not to exceed the greater of
that authorized in accordance with the provisions of Title 18 or $250,000 if the defendant is an individual or $1,000,000 if
the defendant is other than an individual, or both. If any person commits such a violation after a prior conviction for a felony
drug offense has become final, such person shall be sentenced to a term of imprisonment of not more than 10 years, a fine
not to exceed the greater of twice that authorized in accordance with the provisions of Title 18 or $500,000 if the defendant
is an individual or $2,000,000 if the defendant is other than an individual, or both. Notwithstanding section 3583 of Title 18,
any sentence imposing a term of imprisonment under this paragraph shall, in the absence of such a prior conviction, impose
a term of supervised release of at least 2 years in addition to such term of imprisonment and shall, if there was such a prior
conviction, impose a term of supervised release of at least 4 years in addition to such term of imprisonment.
(E)(i) Except as provided in subparagraphs (C) and (D), in the case of any controlled substance in schedule III, such person
shall be sentenced to a term of imprisonment of not more than 10 years and if death or serious bodily injury results from the
use of such substance shall be sentenced to a term of imprisonment of not more than 15 years, a fine not to exceed the greater
of that authorized in accordance with the provisions of Title 18 or $500,000 if the defendant is an individual or $2,500,000
if the defendant is other than an individual, or both.
(ii) If any person commits such a violation after a prior conviction for a felony drug offense has become final, such person
shall be sentenced to a term of imprisonment of not more than 20 years and if death or serious bodily injury results from
the use of such substance shall be sentenced to a term of imprisonment of not more than 30 years, a fine not to exceed the
greater of twice that authorized in accordance with the provisions of Title 18 or $1,000,000 if the defendant is an individual
or $5,000,000 if the defendant is other than an individual, or both.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX E 4

§ 841. Prohibited acts A, 21 USCA § 841

(iii) Any sentence imposing a term of imprisonment under this subparagraph shall, in the absence of such a prior conviction,
impose a term of supervised release of at least 2 years in addition to such term of imprisonment and shall, if there was such
a prior conviction, impose a term of supervised release of at least 4 years in addition to such term of imprisonment.
(2) In the case of a controlled substance in schedule IV, such person shall be sentenced to a term of imprisonment of not more
than 5 years, a fine not to exceed the greater of that authorized in accordance with the provisions of Title 18 or $250,000
if the defendant is an individual or $1,000,000 if the defendant is other than an individual, or both. If any person commits
such a violation after a prior conviction for a felony drug offense has become final, such person shall be sentenced to a term
of imprisonment of not more than 10 years, a fine not to exceed the greater of twice that authorized in accordance with the
provisions of Title 18 or $500,000 if the defendant is an individual or $2,000,000 if the defendant is other than an individual,
or both. Any sentence imposing a term of imprisonment under this paragraph shall, in the absence of such a prior conviction,
impose a term of supervised release of at least one year in addition to such term of imprisonment and shall, if there was such
a prior conviction, impose a term of supervised release of at least 2 years in addition to such term of imprisonment.
(3) In the case of a controlled substance in schedule V, such person shall be sentenced to a term of imprisonment of not more
than one year, a fine not to exceed the greater of that authorized in accordance with the provisions of Title 18 or $100,000
if the defendant is an individual or $250,000 if the defendant is other than an individual, or both. If any person commits
such a violation after a prior conviction for a felony drug offense has become final, such person shall be sentenced to a term
of imprisonment of not more than 4 years, a fine not to exceed the greater of twice that authorized in accordance with the
provisions of Title 18 or $200,000 if the defendant is an individual or $500,000 if the defendant is other than an individual,
or both. Any sentence imposing a term of imprisonment under this paragraph may, if there was a prior conviction, impose a
term of supervised release of not more than 1 year, in addition to such term of imprisonment.
(4) Notwithstanding paragraph (1)(D) of this subsection, any person who violates subsection (a) of this section by distributing
a small amount of marihuana for no remuneration shall be treated as provided in section 844 of this title and section 3607
of Title 18.
(5) Any person who violates subsection (a) of this section by cultivating or manufacturing a controlled substance on Federal
property shall be imprisoned as provided in this subsection and shall be fined any amount not to exceed-(A) the amount authorized in accordance with this section;
(B) the amount authorized in accordance with the provisions of Title 18;
(C) $500,000 if the defendant is an individual; or
(D) $1,000,000 if the defendant is other than an individual;
or both.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX E 5

§ 841. Prohibited acts A, 21 USCA § 841

(6) Any person who violates subsection (a), or attempts to do so, and knowingly or intentionally uses a poison, chemical, or
other hazardous substance on Federal land, and, by such use-(A) creates a serious hazard to humans, wildlife, or domestic animals,
(B) degrades or harms the environment or natural resources, or
(C) pollutes an aquifer, spring, stream, river, or body of water,
shall be fined in accordance with Title 18 or imprisoned not more than five years, or both.
(7) Penalties for distribution
(A) In general
Whoever, with intent to commit a crime of violence, as defined in section 16 of Title 18 (including rape), against an
individual, violates subsection (a) by distributing a controlled substance or controlled substance analogue to that individual
without that individual's knowledge, shall be imprisoned not more than 20 years and fined in accordance with Title 18.
(B) Definition
For purposes of this paragraph, the term “without that individual's knowledge” means that the individual is unaware that a
substance with the ability to alter that individual's ability to appraise conduct or to decline participation in or communicate
unwillingness to participate in conduct is administered to the individual.
(c) Offenses involving listed chemicals
Any person who knowingly or intentionally-(1) possesses a listed chemical with intent to manufacture a controlled substance except as authorized by this subchapter;
(2) possesses or distributes a listed chemical knowing, or having reasonable cause to believe, that the listed chemical will be
used to manufacture a controlled substance except as authorized by this subchapter; or
(3) with the intent of causing the evasion of the recordkeeping or reporting requirements of section 830 of this title, or the
regulations issued under that section, receives or distributes a reportable amount of any listed chemical in units small enough
so that the making of records or filing of reports under that section is not required;
shall be fined in accordance with Title 18 or imprisoned not more than 20 years in the case of a violation of paragraph (1) or
(2) involving a list I chemical or not more than 10 years in the case of a violation of this subsection other than a violation of
paragraph (1) or (2) involving a list I chemical, or both.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX E 6

§ 841. Prohibited acts A, 21 USCA § 841

(d) Boobytraps on Federal property; penalties; “boobytrap” defined
(1) Any person who assembles, maintains, places, or causes to be placed a boobytrap on Federal property where a controlled
substance is being manufactured, distributed, or dispensed shall be sentenced to a term of imprisonment for not more than 10
years or fined under Title 18, or both.
(2) If any person commits such a violation after 1 or more prior convictions for an offense punishable under this subsection,
such person shall be sentenced to a term of imprisonment of not more than 20 years or fined under Title 18, or both.
(3) For the purposes of this subsection, the term “boobytrap” means any concealed or camouflaged device designed to cause
bodily injury when triggered by any action of any unsuspecting person making contact with the device. Such term includes
guns, ammunition, or explosive devices attached to trip wires or other triggering mechanisms, sharpened stakes, and lines or
wires with hooks attached.
(e) Ten-year injunction as additional penalty
In addition to any other applicable penalty, any person convicted of a felony violation of this section relating to the receipt,
distribution, manufacture, exportation, or importation of a listed chemical may be enjoined from engaging in any transaction
involving a listed chemical for not more than ten years.
(f) Wrongful distribution or possession of listed chemicals
(1) Whoever knowingly distributes a listed chemical in violation of this subchapter (other than in violation of a recordkeeping
or reporting requirement of section 830 of this title) shall, except to the extent that paragraph (12), (13), or (14) of section 842(a)
of this title applies, be fined under Title 18 or imprisoned not more than 5 years, or both.
(2) Whoever possesses any listed chemical, with knowledge that the recordkeeping or reporting requirements of section 830 of
this title have not been adhered to, if, after such knowledge is acquired, such person does not take immediate steps to remedy
the violation shall be fined under Title 18 or imprisoned not more than one year, or both.
(g) Internet sales of date rape drugs
(1) Whoever knowingly uses the Internet to distribute a date rape drug to any person, knowing or with reasonable cause to
believe that-(A) the drug would be used in the commission of criminal sexual conduct; or
(B) the person is not an authorized purchaser;
shall be fined under this subchapter or imprisoned not more than 20 years, or both.
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX E 7

§ 841. Prohibited acts A, 21 USCA § 841

(2) As used in this subsection:
(A) The term “date rape drug” means-(i) gamma hydroxybutyric acid (GHB) or any controlled substance analogue of GHB, including gamma butyrolactone
(GBL) or 1,4-butanediol;
(ii) ketamine;
(iii) flunitrazepam; or
(iv) any substance which the Attorney General designates, pursuant to the rulemaking procedures prescribed by section
553 of Title 5, to be used in committing rape or sexual assault.
The Attorney General is authorized to remove any substance from the list of date rape drugs pursuant to the same
rulemaking authority.
(B) The term “authorized purchaser” means any of the following persons, provided such person has acquired the controlled
substance in accordance with this chapter:
(i) A person with a valid prescription that is issued for a legitimate medical purpose in the usual course of professional
practice that is based upon a qualifying medical relationship by a practitioner registered by the Attorney General. A
“qualifying medical relationship” means a medical relationship that exists when the practitioner has conducted at least 1
medical evaluation with the authorized purchaser in the physical presence of the practitioner, without regard to whether
portions of the evaluation are conducted by other heath1 professionals. The preceding sentence shall not be construed
to imply that 1 medical evaluation demonstrates that a prescription has been issued for a legitimate medical purpose
within the usual course of professional practice.
(ii) Any practitioner or other registrant who is otherwise authorized by their registration to dispense, procure, purchase,
manufacture, transfer, distribute, import, or export the substance under this chapter.
(iii) A person or entity providing documentation that establishes the name, address, and business of the person or entity
and which provides a legitimate purpose for using any “date rape drug” for which a prescription is not required.
(3) The Attorney General is authorized to promulgate regulations for record-keeping and reporting by persons handling 1,4butanediol in order to implement and enforce the provisions of this section. Any record or report required by such regulations
shall be considered a record or report required under this chapter.
(h) Offenses involving dispensing of controlled substances by means of the Internet

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX E 8

§ 841. Prohibited acts A, 21 USCA § 841

(1) In general
It shall be unlawful for any person to knowingly or intentionally-(A) deliver, distribute, or dispense a controlled substance by means of the Internet, except as authorized by this subchapter;
or
(B) aid or abet (as such terms are used in section 2 of Title 18) any activity described in subparagraph (A) that is not
authorized by this subchapter.
(2) Examples
Examples of activities that violate paragraph (1) include, but are not limited to, knowingly or intentionally-(A) delivering, distributing, or dispensing a controlled substance by means of the Internet by an online pharmacy that is not
validly registered with a modification authorizing such activity as required by section 823(f) of this title (unless exempt
from such registration);
(B) writing a prescription for a controlled substance for the purpose of delivery, distribution, or dispensation by means of
the Internet in violation of section 829(e) of this title;
(C) serving as an agent, intermediary, or other entity that causes the Internet to be used to bring together a buyer and seller
to engage in the dispensing of a controlled substance in a manner not authorized by sections2 823(f) or 829(e) of this title;
(D) offering to fill a prescription for a controlled substance based solely on a consumer's completion of an online medical
questionnaire; and
(E) making a material false, fictitious, or fraudulent statement or representation in a notification or declaration under
subsection (d) or (e), respectively, of section 831 of this title.
(3) Inapplicability
(A) This subsection does not apply to-(i) the delivery, distribution, or dispensation of controlled substances by nonpractitioners to the extent authorized by
their registration under this subchapter;
(ii) the placement on the Internet of material that merely advocates the use of a controlled substance or includes pricing
information without attempting to propose or facilitate an actual transaction involving a controlled substance; or
© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX E 9

§ 841. Prohibited acts A, 21 USCA § 841

(iii) except as provided in subparagraph (B), any activity that is limited to-(I) the provision of a telecommunications service, or of an Internet access service or Internet information location
tool (as those terms are defined in section 231 of Title 47); or
(II) the transmission, storage, retrieval, hosting, formatting, or translation (or any combination thereof) of a
communication, without selection or alteration of the content of the communication, except that deletion of a particular
communication or material made by another person in a manner consistent with section 230(c) of Title 47 shall not
constitute such selection or alteration of the content of the communication.
(B) The exceptions under subclauses (I) and (II) of subparagraph (A)(iii) shall not apply to a person acting in concert with
a person who violates paragraph (1).
(4) Knowing or intentional violation
Any person who knowingly or intentionally violates this subsection shall be sentenced in accordance with subsection (b).
CREDIT(S)
(Pub.L. 91-513, Title II, § 401, Oct. 27, 1970, 84 Stat. 1260; Pub.L. 95-633, Title II, § 201, Nov. 10, 1978, 92 Stat. 3774; Pub.L.
96-359, § 8(c), Sept. 26, 1980, 94 Stat. 1194; Pub.L. 98-473, Title II, §§ 224(a), 502, 503(b)(1), (2), Oct. 12, 1984, 98 Stat.
2030, 2068, 2070; Pub.L. 99-570, Title I, §§ 1002, 1003(a), 1004(a), 1005(a), 1103, Title XV, § 15005, Oct. 27, 1986, 100
Stat. 3207-2, 3207-5, 3207-6, 3207-11, 3207-192; Pub.L. 100-690, Title VI, §§ 6055, 6254(h), 6452(a), 6470(g), (h), 6479,
Nov. 18, 1988, 102 Stat. 4318, 4367, 4371, 4378, 4381; Pub.L. 101-647, Title X, § 1002(e), Title XII, § 1202, Title XXXV,
§ 3599K, Nov. 29, 1990, 104 Stat. 4828, 4830, 4932; Pub.L. 103-322, Title IX, § 90105(a), (c), Title XVIII, § 180201(b)(2)
(A), Sept. 13, 1994, 108 Stat. 1987, 1988, 2047; Pub.L. 104-237, Title II, § 206(a), Title III, § 302(a), Oct. 3, 1996, 110 Stat.
3103, 3105; Pub.L. 104-305, § 2(a), (b)(1), Oct. 13, 1996, 110 Stat. 3807; Pub.L. 105-277, Div. E, § 2(a), Oct. 21, 1998, 112
Stat. 2681-759; Pub.L. 106-172, §§ 3(b)(1), 5(b), 9, Feb. 18, 2000, 114 Stat. 9, 10, 13; Pub.L. 107-273, Div. B, Title III, §
3005(a), Title IV, § 4002(d)(2)(A), Nov. 2, 2002, 116 Stat. 1805, 1809; Pub.L. 109-177, Title VII, §§ 711(f)(1)(B), 732, Mar.
9, 2006, 120 Stat. 262, 270; Pub.L. 109-248, Title II, § 201, July 27, 2006, 120 Stat. 611; Pub.L. 110-425, § 3(e), (f), Oct. 15,
2008, 122 Stat. 4828, 4829; Pub.L. 111-220, §§ 2(a), 4(a), Aug. 3, 2010, 124 Stat. 2372; Pub.L. 115-391, Title IV, § 401(a)
(2), Dec. 21, 2018, 132 Stat. 5220.)

Notes of Decisions (8146)

Footnotes
So in original. Probably should be “health”.
1
So in original. Probably should be “section”.
2
21 U.S.C.A. § 841, 21 USCA § 841
Current through P.L. 116-164. Some statute sections may be more current, see credits for details.
End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

APPENDIX E 10

